CREDIT LINE ACCOUNT
AGREEMENT AND DISCLOSURE
THIS IS YOUR CREDIT LINE ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-IN-LENDING
DISCLOSURE STATEMENTS AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR MASTERCARD, STUDENT
MASTERCARD, SECURED MASTERCARD AND PREMIER PRIVILEGES REWARDS MASTERCARD CREDIT CARDS AND
OVERDRAFT LINE OF CREDIT AND PREMIER LINE OF CREDIT PRODUCTS AND ANY OTHER ACCOUNT ACCESS DEVICES.
PLEASE READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.
Account Number

Borrower Name(s)

Credit Limit

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

______% introductory APR for ______ months.
After that, Your APR will be ______%. This APR will vary with the market based on

Mastercard:

the Prime Rate.

______% introductory APR for ______ months.
After that, Your APR will be ______%. This APR will vary with the market based on

Student Mastercard:

the Prime Rate.

______%

Secured Mastercard:
This APR will vary with the market based on the Prime Rate.

______% introductory APR for ______ months.
After that, Your APR will be ______%.

Premier Privileges Rewards Mastercard:

Annual Percentage Rate
(APR) For Balance
Transfers

Mastercard: _______% introductory APR for ______ months.
After that, Your APR will be _______%. This APR will vary with the market based on the
Prime Rate.
Student Mastercard: _______% introductory APR for ______ months.
After that, Your APR will be _______%. This APR will vary with the market based on the
Prime Rate.
Secured Mastercard: _______%
This APR will vary with the market based on the Prime Rate.
Premier Privileges Rewards Mastercard: _______% introductory APR for ______ months.
After that, Your APR will be _______%.

Annual Percentage Rate
(APR) For Cash Advance

Mastercard: _______% introductory APR for ______ months.
After that, Your APR will be _______%. This APR will vary with the market based on the
Prime Rate.
Student Mastercard: _______% introductory APR for ______ months.
After that, Your APR will be _______%. This APR will vary with the market based on the
Prime Rate.
Secured Mastercard: _______%
This APR will vary with the market based on the Prime Rate.
Premier Privileges Rewards Mastercard: _______% introductory APR for ______ months.
After that, Your APR will be _______%.
SEE PAGE 2 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2014-2021. All Rights Reserved.

Page 1 of 7

OTBS 016 FRB Web PREM (3/21)

Interest Rate and Interest Charges (continued)
Annual Percentage Rate
(APR) For Cash Advance
(continued)

Overdraft Line of Credit: _______%
This APR will vary with the market based on the Prime Rate.
Premier Line of Credit: _______%
This APR will vary with the market based on the Prime Rate.

Penalty APR and When
it Applies

For Overdraft Line of Credit and Premier Line of Credit: ________%
This APR may be applied if:
1) You make a late payment.
2) You are otherwise in default.
How Long Will The Penalty APR Apply? If Your APR is increased for this reason, the
Penalty APR will be applied indefinitely to Your entire balance existing at that time and in
the future.

Paying Interest

For Credit Cards, Your due date is at least 25 days after the close of each billing cycle. We will
not charge You any interest on purchases if You pay Your entire balance by the due date each
month. For all Feature Categories We will begin charging interest on balance transfers and cash
advances on the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees


Foreign Transaction



Cash Advance

For Credit Cards (except Premier Privileges Rewards Mastercard), 1.00% of each foreign
currency transaction in U.S. Dollars.
For Credit Cards (except Premier Privileges Rewards Mastercard), 1.00% of each U.S. Dollar
transaction that occurs in a foreign country.
For Credit Cards, the greater of 3.00% of each transaction or $3.00.

Penalty Fees


Late Payment



Over-the-Credit Limit

Except Credit Cards, $15.00
For Credit Cards, up to $15.00
Except Credit Cards, $10.00

How We Will Calculate Your Balance: For all Products (except Mastercard), We use a method called "daily balance." For
Mastercard, We use a method called "average daily balance (including new purchases)." See Your Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.

SEE PAGE 1 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2014-2021. All Rights Reserved.

Page 2 of 7

OTBS 016 FRB Web PREM (3/21)

In this Agreement, the references to "We," "Us," "Our," and "Credit Union" mean PREMIER AMERICA CREDIT UNION. The words "You" and "Your" mean each person
accepting this Agreement. The words "Card" and "Credit Card" mean any Mastercard, Student Mastercard, Secured Mastercard, or Premier Privileges Rewards Mastercard
Credit Card issued to You by Us and any duplicates or renewals. If this is a joint account, read singular pronouns in the plural.
You, as the borrower, under a Credit Line Account ("Account"), understand that the following Federal Disclosure Statement and the terms and conditions found herein
constitute Our Agreement with You. Your Account may be accessible through a variety of means which could include advance request forms, vouchers, convenience checks,
charge slips, credit cards, telephone access, personal computer access, ATMs or other mechanical/electronic means and the like. Regardless of the access means, You
promise to pay Us all amounts charged or advanced to Your Account by You or by any user who has access to Your Account, with actual, apparent or implied authority for
use of Your Account, including Finance Charges and other fees or charges described herein. You may terminate the use of Your Account by an authorized user by preventing
the use of any Account access device (such as a Credit Card or PIN) by that user and by notifying Us in writing that any such user is no longer authorized to use Your Account.
You understand that all advances are subject to Our prior approval.
PRODUCTS
Your Account has products which may include Mastercard, Student Mastercard, Secured Mastercard, Premier Privileges Rewards Mastercard, Overdraft Line of Credit, and
Premier Line of Credit.

Variable Rate
Product

_____________________________

Index

Margin

____________

____________

Product

_____________________________

TRANSACTIONS/ADVANCES
Whenever You request a transaction or an advance, We may require You to prove
Your identity. If You request an advance by telephone, We will deposit the amount
requested in Your share savings account or Your checking account (or any other
account as directed by You) and You authorize Us to do this, or We will draw a draft
or check made payable to You and mail it to You. When the amount advanced
appears on a subsequent statement, that will be conclusive evidence of Your
telephone request. Advances for all products (except for Credit Card purchases and
except for Credit Card cash advances made at Premier America Credit Union office
locations) are subject to a minimum of $100.00.
SECURITY
As permitted by law, to secure all transactions under this Agreement in either joint or
individual Accounts, We have the right to impress and enforce a statutory lien against
Your shares on deposit with Us (other than those deposits established under a
governmental approved tax deferral plan such as an IRA or Keogh account) and any
dividends due or to become due to You from Us to the extent that You owe on any unpaid
balance on Your Account and We may enforce Our right to do so without further notice
to You. Additionally, You agree that We may set off any mutual indebtedness.
OTHER SECURITY/CROSS COLLATERAL
Collateral (other than household goods or any dwelling) given as security for any other
loan You may have with Us both now and in the future will, in addition to securing all
presently existing debts and liabilities You owe to Us, secure all future advances We
make to You or for Your Account, including advances for reasonable attorneys' fees,
court costs and/or collection agency fees and costs incurred in the collection of all
indebtedness. Such Collateral shall include any and all accessions, related insurance
proceeds or insurance premium refunds.
ACCOUNT RESTRICTIONS
In order to receive and maintain a Share Secured product (such as Secured
Mastercard), You agree to give Us a specific pledge of shares which will be equal to
110.00% of Your approved Credit Limit. In the event that You default on Your Account,
We may apply these shares toward the repayment of any amount owed on Your Share
Secured product. You may cancel Your Share Secured product at any time by paying
any amounts owed on Your specific Share Secured product and returning any access
devices. To be certain that Your entire balance and all advances on Your Account are
paid, any shares pledged may not be available for 30 days after You have cancelled
any such account product.
Copyright Oak Tree Business Systems, Inc., 2014-2021. All Rights Reserved.

Daily
Periodic Rate

Annual
Percentage Rate

_______________%

_______________%

Introductory
Daily
Periodic Rate

Introductory
Annual
Percentage Rate

_______________%

_______________%

LINE OF CREDIT LIMIT
You will be notified of Your specific credit limits which are available under Your
Account. Unless You are in default, the credit limits established for You will generally
be self-replenishing as You make payments on Your Account.
You will keep Your unpaid balance within the credit limits set by Us, and You will pay
any amount over the credit limits on Our demand whether or not We authorize the
advances which caused You to exceed Your credit limits.
For Credit Cards, Your available credit will be reduced by pending transactions that
have not yet been posted to Your Account. Such a "hold" on Your available credit
might remain in effect until the earlier of the date that the transaction actually posts to
Your Account for a corresponding amount or 10 business days. In the event that a
transaction posts for an amount that is different than a pending transaction, Your
available credit will still be reduced by an amount that corresponds to the related
pending transaction for up to 10 business days.
JOINT ACCOUNTS
Each borrower will be responsible, jointly and severally, for the repayment of any
amounts owed. If any Account access device, such as a Personal Identification
Number (PIN), is requested and approved, You understand that any such Account
access device(s) will be mailed only to the primary borrower(s) at the current address
of record at the Credit Union. We may refuse to follow any instructions which run
counter to this provision.
FINANCE CHARGES (EXCEPT CREDIT CARDS)
The balances subject to the periodic Finance Charge are the daily ending balances
outstanding for each day during the billing cycle. To get the daily ending balance, We
take the beginning balance of Your account each day, add any new advances,
insurance premiums, debit adjustments and any applicable fees, and subtract any
payments, credits and unpaid Finance Charges and late fees. The Finance Charge is
computed by multiplying the Daily Periodic Rate by the daily ending balance
outstanding for each day of the billing cycle. The daily Finance Charges are added
together and the sum is the amount of Your total new Finance Charge due. There is
no grace period.
CREDIT CARD FINANCE CHARGES
The balances subject to the periodic Finance Charge are the average daily
balances outstanding during the billing cycle. The Finance Charge for a billing cycle

Page 3 of 7

OTBS 016 FRB Web PREM (3/21)

is computed by applying the Daily Periodic Rate to the average daily balance during
the billing cycle. To get the average daily balance, We take the beginning balance
of Your Account each day, add any new purchases, balance transfers, cash
advances, insurance premiums, debit adjustments and any applicable fees, and
subtract any payments, credits and unpaid Finance Charges or Late Fees. Then,
We add up all the daily balances for the billing cycle and divide them by the number
of days in the billing cycle which We multiply by the Daily Periodic Rate. These daily
Finance Charges are then added together and the sum is the amount of Your total
new Finance Charge due.
You can avoid Finance Charges on purchases by paying the full amount of the entire
balance owed each month within 25 days of Your statement closing date. Otherwise,
the new balance of purchases, and subsequent purchases from the date they are
posted to Your Account, will be subject to a Finance Charge. Balance transfers and
cash advances are always subject to a Finance Charge from the date they are posted
to Your Account.

an amount that causes Your balance to exceed 120 percent of Your Credit Limit;
whichever is less.
MONTHLY PAYMENT SCHEDULE
Though You need only pay the Current Payment due shown on Your monthly
statement, You understand that You have the right to repay Your Account or make
larger payments on Your Account at any time without penalty. You also understand
that You will be charged periodic Finance Charges to the date You repay Your entire
Account balance. Any partial payment or prepayment of Your Account will not delay
Your next scheduled payment. All payments to Us must be in lawful money of the
United States. Payments will be applied first to collection costs, then to any Finance
Charges due, then to any Fees and Charges owing, then to the outstanding principal
balance. Any unpaid portion of the Finance Charge will be reduced by subsequent
payments and will not be added to the principal balance. You understand that any
delay in the repayment of Your unpaid balance will increase Your periodic Finance
Charges and any acceleration in the repayment of Your unpaid balance will decrease
Your periodic Finance Charges.

Your Mastercard is subject to a discounted introductory Daily Periodic Rate as set
forth herein for the initial six-month period. Upon the expiration of the introductory
rate period, Your Daily Periodic Rate will increase to the non-introductory Daily
Periodic Rate (corresponding to the non-introductory Annual Percentage Rate) as
also set forth herein.

Your payment is due on the payment due date as disclosed on Your monthly statement.
You may elect to make Your payment by automatic transfer from a designated account.
If You select this option, You understand and agree that You must maintain sufficient
funds on deposit to permit Us to transfer the payment on the payment due date.

Your Student Mastercard is subject to a discounted introductory Daily Periodic Rate
as set forth herein for the initial six-month period. Upon the expiration of the
introductory rate period, Your Daily Periodic Rate will increase to the non- introductory
Daily Periodic Rate (corresponding to the non-introductory Annual Percentage Rate)
as also set forth herein.

For all products (except Credit Cards), Your payment will be 2.00% of Your new
unpaid balance at the end of each billing cycle plus any portion of the payments shown
on prior statement(s) which remains unpaid, plus any amount that exceeds Your
approved credit limit. Your current payment in any event will be subject to the lesser
of $20.00 or Your balance.

Your Secured Mastercard is subject to a Daily Periodic Rate, corresponding to an
Annual Percentage Rate, as set forth herein.

Credit Card payments will be 3.00% of Your new unpaid balance at the end of each
billing cycle plus any portion of any payments shown on prior statement(s) which
remains unpaid, plus any amount that exceeds Your approved credit limit. Your
payment in any event will be subject to the lesser of $15.00 or Your balance.

Your Premier Privileges Rewards Mastercard is subject to a discounted introductory
Daily Periodic Rate as set forth herein for the initial six-month period. Upon the
expiration of the introductory rate period, Your Daily Periodic Rate will increase to the
non-introductory Daily Periodic Rate (corresponding to the non-introductory Annual
Percentage Rate) as also set forth herein.
VARIABLE RATE
(EXCEPT PREMIER PRIVILEGES REWARDS MASTERCARD)
Except Premier Privileges Rewards Mastercard, all advances are subject to a
Variable Rate which is based on the Prime Rate as published in the Money Rates
Section of The Wall Street Journal on the last day of Your previous billing cycle
("Index") plus Our Margin. The Index plus the Margin equals the Interest Rate.
Changes in the Index will cause changes in the Interest Rate on the first day of
the billing cycle following any such change in the Index. Increases or decreases
in the Interest Rate will cause like increases or decreases in the Finance Charge
and will affect the number of regularly scheduled payments that You will be
required to make. There is no limit on the amount by which Your Interest Rate
can increase.
VARIABLE RATE (EXCEPT CREDIT CARDS)
Your Account is subject to a Variable Rate which is based on the Prime Rate as
published in the Money Rates Section of The Wall Street Journal on the last day of
Your previous billing cycle ("Index") plus Our Margin. The Index plus the Margin
equals the Interest Rate. Changes in the Index will cause changes in the Interest
Rate on the first day of the billing cycle following any such change in the Index.
Increases or decreases in the Interest Rate will cause like increases or decreases
in the Finance Charge and will affect the number of regularly scheduled payments
that You will be required to make. There is no limit on the amount by which Your
Interest Rate can increase.
LATE CHARGE (EXCEPT CREDIT CARDS)
If Your payment is 15 or more days past due, You will be charged $15.00.
CREDIT CARD LATE CHARGE
If Your payment is 15 or more days past due, You will be charged the lesser of: (a)
the amount of the minimum payment due; or (b) $15.00.
OTHER FEES AND CHARGES
You will be charged the following fees and charges associated with the use of Your
Account: (a) for Credit Cards, the greater of 3.00% of the transaction or $3.00 for
each cash advance obtained; (b) for Credit Cards, to the extent permitted by
applicable law, the greater of $250.00 or actual costs incurred by the Credit Union
when You elect to withdraw a charge back and initiate arbitration proceedings; (c)
for Credit Cards, $12.00 for each draft copy that You request; and (d) except for
Credit Cards, $10.00 whenever You exceed Your Credit Limit by: (i) $500.00; or (ii)

Copyright Oak Tree Business Systems, Inc., 2014-2021. All Rights Reserved.

OVERDRAFT PROTECTION
You agree that We may transfer funds in multiples of $100.00 (or in such increments as
We may from time to time determine) to Your checking account by an advance on the
account product designated on Your Overdraft Protection Application/Sign-Up Card to
clear any overdraft on Your checking account. In any event, You hold Us harmless for
any and all liability which might otherwise arise if the transfer does not occur. Your
checking account overdraft protection automatically ceases if this Agreement is
cancelled or terminated or Your Account is in default.
PERIODIC STATEMENTS
On a regular basis, You will receive a statement showing all transactions on Your
Account including amounts paid and borrowed since Your last statement. We will mail
You a statement each month in which there have been any transactions on Your
Account or there is a debit or credit balance. We need not send You a statement if
We feel Your Account is uncollectible but such action by Us does not relieve You of
Your liability to repay any amounts that You owe Us. Each statement is deemed to be
a correct statement of account unless You notify Us of a billing error pursuant to the
Federal Truth-In-Lending Act.
DEFAULT/CROSS DEFAULT
You will be in default if: (a) You do not make any payment or perform any obligation
required under any other agreement that You may have with Us, including but not
limited to loan agreements, credit line agreements, debt instruments and the like;
or (b) You do not make any payment or perform any obligation required under this
Agreement; or (c) You should die, become involved in any insolvency, receivership
or custodial proceeding brought by or against You; or (d) You have made a false
or misleading statement in Your credit application and/or in Your representations to
us while You owe money on Your Account; or (e) a judgment or tax lien should be
filed against You or any attachment or garnishment should be issued against any
of Your property or rights, specifically including anyone starting an action or
proceeding to seize any of Your funds on deposit with Us; and/or (f) We should, in
good faith, believe Your ability to repay Your indebtedness hereunder is or soon
will be impaired.
If You are in default, We may, without prior notice or demand and to the extent permitted
by law, cancel Your rights under this Agreement, declare the entire unpaid balance of
Your Account immediately due and payable, set-off any money owed Us in accordance
with the terms of said Agreement and require the return of all access devices.
If immediate payment is demanded, You will continue to pay Finance Charges at the
applicable Annual Percentage Rate in effect until what You owe has been repaid.
Even if Your unpaid balance is less than Your Credit Limit(s), You will have no credit
available during any time that any aspect of Your Account is in default.

Page 4 of 7

OTBS 016 FRB Web PREM (3/21)

PENALTY APR (EXCEPT CREDIT CARDS)
For all products (except Credit Cards), if You are ever 30 or more days past due on
any payment and/or Your Account is otherwise in default, the Margin applicable to
Your entire balance existing at that time and in the future will increase by 10.00%.
The increase in the Margin will result in an increase in the Daily Periodic Rate by
0.027397% (corresponding to an increase in the ANNUAL PERCENTAGE RATE
of 10.00%).
ENFORCEMENT
We do not lose Our rights under this or any related agreement if We delay enforcing
them. We can accept late payments, partial payments or any other payments, even if
they are marked "paid in full" or contain language indicating full satisfaction of the
unpaid balance without losing any of Our rights under this Agreement. Any
compromise in, or the reduction of, amounts owed under this Agreement must be
previously agreed to in writing by an authorized employee of the Credit Union. If any
provision of this or any related agreement is determined to be unenforceable or
invalid, all other provisions remain in full force and effect.
COLLECTION COSTS
If You are in default, to the extent permitted by law, You will reimburse us for all costs
of collecting the amount You owe under this Agreement including reasonable
attorneys' fees. You agree that We may add any collection costs, including reasonable
attorneys' fees, to Your Account balance on which Finance Charges will be charged,
subject to the applicable Annual Percentage Rate.
DEBT CANCELLATION COVERAGE
Debt cancellation coverage ("Loan Protection Plan") is not required for any
extension of credit under this Agreement. However, You may purchase any Loan
Protection Plan available through Us and have the fees added to Your outstanding
Account balance. If You elect to do so, You will be given the necessary disclosures
and documents separately.
INTEGRATED DOCUMENTS
Any separate sheet of paper labeled "Additional Disclosure - Federal Truth-In-Lending
Act," "Truth-In-Savings Disclosure and Agreement" or "Schedule of Fees" which is
delivered together with this Agreement or separately becomes an integrated part of
this Agreement and Disclosure.
NOTIFICATION OF ADDRESS CHANGE
You will notify Us promptly in writing if You: (a) move or otherwise have a change of
address; or (b) change Your name.
CHANGE IN TERMS
We may change the terms of this Agreement by mailing or delivering to You written
notice of the changes as prescribed by the Federal Truth-In-Lending Act. To the extent
permitted by law, the right to change the terms of this Agreement includes, but is not
limited to, the right to change the periodic rate applicable to Your unpaid balance
and/or future advances.
UPDATING AND DISCLOSING FINANCIAL INFORMATION
You will provide facts to update information contained in Your original application or
other financial information related to You, at Our request. You also agree that We
may, from time to time, as We deem necessary, make inquiries pertaining to Your
employment, credit standing and financial responsibility in accordance with applicable
laws and regulations. You further agree that We may give information about the status
and payment history of Your Account to consumer credit reporting agencies, a
prospective employer or insurer, or a state or federal agency having any apparent
legitimate business need for such information.
You agree to provide Us, upon Our request, with a current financial statement or
other current credit information that meets Our requirements. You understand and
agree that if We request such information, that We may, at Our sole option, refuse
to make further advances on Your Account until such time as We have received the
requested information. If You fail to furnish the requested information in a timely
fashion We may, at Our option, and without further notice to You, declare Your
Account to be in default.
TERMINATION
Either You or We may cancel Your Account at any time, whether or not You are in
default. In the event We receive a written request for Account termination from You
or any party to Your Account, or if We receive inconsistent instructions regarding
Account termination from different parties to Your Account, We may, at Our sole
option and without further notice to any other party, terminate Your Account or
refuse any right with respect to Your Account, which may include, but is not limited
to, refusing any request for credit or an advance on Your Account. You will, in any
case, remain liable to pay any unpaid balances according to the terms of
Your Account.

Copyright Oak Tree Business Systems, Inc., 2014-2021. All Rights Reserved.

GOVERNING LAW
This Agreement is controlled and governed by the laws of the State of California
except to the extent that such laws are inconsistent with controlling federal law.
ELECTRONIC COMMUNICATIONS
You authorize Us to send You, from time to time, and to the extent permitted by
applicable law, electronic communications regarding the status of any share, share
draft, and/or certificate account(s) You maintain with Us. You also authorize Us to
send You electronic communications regarding any other accounts You may
maintain with Us from time to time including, but not limited to, loan accounts, credit
line accounts, and credit card accounts. These electronic communications are
sometimes referred to as "transactional or relationship messages."
You authorize Us to contact You using any wireless, cellular, mobile or other
telephone number You have provided to Us on Your membership application, and
at any wireless, cellular, mobile or other telephone number You may furnish to Us
or We obtain for You in the future. To the extent permitted by law, We may contact
You using any electronic means We choose, which may include but is not limited
to, voice messages, text messages and other similar electronic methods of
communication. If You have furnished Us with any e-mail address(es), You
understand and agree that We may send You e-mail messages regarding Your
Account(s) with Us from time to time. If You have executed or subsequently execute
any separate Disclosure and Consent to Receive Electronic Documentation or
similar form, any communications covered by such Disclosure and Consent shall
be subject to the terms and conditions set forth in that document.
You understand that the nature of electronic communications is such that anyone
with access to Your wireless, cellular, mobile or other telephonic device or e-mail
may be able to read or listen to such transactional or relationship messages from
Us, and You agree that any person or party sending or leaving such messages shall
have no liability for any consequences resulting from the interception of such
messages by any other party. Without limitation, You also agree that You are
responsible to pay all costs that You may incur as a result of any contact method
We choose including, but not limited to, charges for telecommunications, wireless
and/or internet charges.
CONSENT TO CONTACT AGREEMENT
You agree that We may, subject to applicable law, initiate telephone calls to
any residential line (wireline service), cellular telephone service, or other
wireless service associated with Your Account through use of pre-recorded or
artificial voice messages and/or the use of automatic telephone dialing
systems, in order for Us to service Your Account, prevent fraud, collect any
amounts owed to Us by You, and otherwise conduct Our business with You. If
You furnish Us with one or more cellular telephone numbers in connection with
Your Account, You represent You are or will be the cellular telephone
subscriber with respect to each such number, and that Your consent extends
to all such numbers You provide to Us. You understand that the telephone calls
We may initiate may result in charges to You by any cellular telephone, internet,
or other digital or electronic service to which You subscribe, and You
understand and agree that You are solely responsible for the payment of any
such charges.
ARBITRATION AND WAIVER OF CLASS ACTION
This provision does not apply to covered-loans extended to covered borrowers as
defined within the Military Lending Act ("MLA"). If We determine the credit being
extended is a covered loan, and You are a covered borrower, then We will provide a
notice titled "Military Annual Percentage Rate ("MAPR") And Payment Obligation
Disclosure," as required by applicable law in which case the remaining portion of this
provision will not apply to You.
If We have determined that the credit being extended is not a covered loan, and/or
You are not a covered borrower then, You will not receive the above referenced
notice and You and the Credit Union agree to attempt to informally settle any and
all disputes arising out of, affecting, or relating to the credit extended under this
Agreement, Your accounts, or the products or services the Credit Union has
provided, will provide or has offered to provide to You, and/or any aspect of Your
relationship with the Credit Union (hereafter referred to as the "Claims"), except to
the extent that this provision will not apply to any credit that is secured by Your
principal dwelling. If that cannot be done, then You agree that any and all Claims
that are threatened, made, filed or initiated after the Effective Date (defined below)
of this Arbitration and Waiver of Class Action provision ("Arbitration Agreement"),
even if the Claims arise out of, affect or relate to conduct that occurred prior to the
Effective Date, shall, at the election of either You or the Credit Union, be resolved
by binding arbitration administered by the American Arbitration Association ("AAA")
in accordance with its applicable rules and procedures for consumer disputes
("Rules"), whether such Claims are in contract, tort, statute, or otherwise. The Rules

Page 5 of 7

OTBS 016 FRB Web PREM (3/21)

can be obtained on the AAA website free of charge at www.adr.org; or, a copy of
the Rules can be obtained by calling 800-772-4000 option 0 or emailing
info@premieramerica.com. Either You or the Credit Union may elect to resolve a
particular Claim through arbitration, even if one of Us has already initiated litigation
in court related to the Claim, by: (a) making written demand for arbitration upon the
other party, (b) initiating arbitration against the other party, or (c) filing a motion to
compel arbitration in court. AS A RESULT, IF EITHER YOU OR THE CREDIT
UNION ELECT TO RESOLVE A PARTICULAR CLAIM THROUGH ARBITRATION,
YOU WILL GIVE UP YOUR RIGHT TO GO TO COURT TO ASSERT OR DEFEND
YOUR RIGHTS UNDER THIS LOAN NOTE AGREEMENT (EXCEPT FOR CLAIMS
BROUGHT INDIVIDUALLY WITHIN SMALL CLAIMS COURT JURISDICTION, SO
LONG AS THE CLAIM REMAINS IN SMALL CLAIMS COURT). This Arbitration
Agreement shall be interpreted and enforced in accordance with the Federal
Arbitration Act set forth in Title 9 of the U.S. Code to the fullest extent possible,
notwithstanding any state law to the contrary, regardless of the origin or nature of
the Claims at issue. This Arbitration Agreement does not prevent You from
submitting any issue relating to Your accounts for review or consideration by a
federal, state, or local governmental agency or entity, nor does it prevent such
agency or entity from seeking relief on Your behalf.
Selection of Arbitrator. The Claims shall be resolved by a single arbitrator. The
arbitrator shall be selected in accordance with the Rules, and must have
experience in the types of financial transactions at issue in the Claims. In the
event of a conflict between the Rules and this Arbitration Agreement, this
Arbitration Agreement shall supersede the conflicting Rules only to the extent of
the inconsistency. If AAA is unavailable to resolve the Claims, and if You and the
Credit Union do not agree on a substitute forum, then You can select a
reasonable forum for the resolution of the Claims.
Effective Date. This Arbitration Agreement is effective upon the 61st day after We
provide it to You ("Effective Date"), unless You opt-out in accordance with the
requirements of the RIGHT TO OPT-OUT provision below.
Arbitration Proceedings. The arbitration shall be conducted within 50 miles of
Your residence at the time the arbitration is commenced. Any claims and defenses
that can be asserted in court can be asserted in the arbitration. The Arbitrator
shall be entitled to award the same remedies that a court can award, including
public injunctive relief under the California Unfair Competition Law and
Consumer Legal Remedies Act. Discovery shall be available for non-privileged
information to the fullest extent permitted under the Rules. The Arbitrator's
award can be entered as a judgment in court. Except as provided in applicable
statutes, the arbitrator’s award is not subject to review by the court and it cannot be
appealed. The Credit Union shall pay for any filing, administration, and
arbitrator fees imposed on You by the AAA. However, You will be responsible for
Your own attorneys' fees, unless You prevail on Your Claim in the arbitration, in
which case, We will pay Your attorneys' fees. However, if the Credit Union prevails,
then You will not be required to pay Our attorneys' fees and costs. Any
determination as to whether this Arbitration Agreement is valid or enforceable in
part or in its entirety will be made solely by the arbitrator, including without limitation
any issues relating to whether a Claim is subject to arbitration; provided, however,
the enforceability of the Class Action Waiver set forth below shall be determined by
the Court.
Class Action Waiver. ANY ARBITRATION OF A CLAIM WILL BE ON AN
INDIVIDUAL BASIS. YOU UNDERSTAND AND AGREE THAT YOU ARE WAIVING
THE RIGHT TO PARTICIPATE AS A CLASS REPRESENTATIVE OR CLASS
MEMBER IN A CLASS ACTION LAWSUIT.
Severability. In the event the Class Action Waiver in this Arbitration Agreement is
found to be unenforceable for any reason, the remainder of this Arbitration Agreement
shall also be unenforceable. If any provision in this Arbitration Agreement, other than
the Class Action Waiver, is found to be unenforceable, the remaining provisions shall
remain fully enforceable.
Right to Opt-Out. You have the right to opt-out of this provision, provided You
notify the Credit Union of Your intent to do so within 60 days after it is provided to
You. Your opt-out is only effective if You notify the Credit Union in writing at
PACU ATTN: Member Ops, PO BOX 2178 Chatsworth CA 91313-2178 within such
60 day time period and provide Your name, address and Member Number in
such written notice. If You fail to opt-out within this 60 day period, You will be
deemed to have consented to the resolution of Your Claims through binding
arbitration. In the event You opt-out, it shall not affect other terms and conditions of
Your Account Agreement.
FOR MORE DETAILS or if You have questions, You may call the Credit Union or visit
a branch. If You have questions about AAA procedures, You should check AAA's
website, www.adr.org, OR call AAA at (800) 778-7879.

Copyright Oak Tree Business Systems, Inc., 2014-2021. All Rights Reserved.

CONSENT TO AGREEMENT
You agree to and accept the terms of this Agreement And Disclosure by signing the
application for Your Account; by signing this Agreement And Disclosure; by using Your
Account; by using any Account access device; or by using or authorizing another to
use Your Account.
SPECIFIC TERMS APPLICABLE TO YOUR MASTERCARD,
STUDENT MASTERCARD, SECURED MASTERCARD, AND PREMIER
PRIVILEGES REWARDS MASTERCARD CREDIT CARDS
USE OF YOUR CARD
You may use Your Card to buy goods and services in any place that the Card is
honored and to get cash advances from participating ATMs. You agree not to use
Your Card for illegal transactions including, but not limited to, advances made for the
purpose of gambling and/or wagering where such practices are in violation of
applicable state and/or federal law. Additionally, You agree not to utilize Your Credit
Card accounts for the purchase of any goods or services on the Internet that involve
gambling of any sort. Such transactions include, but may not be limited to, any quasicash or online gambling transaction, any electronic commerce transaction conducted
over an open network, and any betting transaction including the purchase of lottery
tickets or casino gaming chips or off-track betting or wagering. However, in the event
that a charge or transaction described in this paragraph is approved and processed,
You will still be responsible for such charges.
OWNERSHIP
All Account access devices remain Our property and may be cancelled by Us at any
time without notice. You agree to surrender such Account access devices and to
discontinue their use immediately upon Our request.
CONSENSUAL LIEN
If You have been issued a Credit Card, You grant and consent to a lien on
Your savings, checking and certificate accounts with Us (except for IRA
accounts) and any dividends due or to become due to You from Us to the
extent You owe on Your unpaid Credit Card balance.
ISSUANCE OF PERSONAL IDENTIFICATION NUMBER
We will issue You a Personal Identification Number (PIN) for use with Your Card in
conjunction with participating Automated Teller Machines (ATMs) and/or any other
participating programs. This PIN is confidential and should not be disclosed to anyone.
You may use Your PIN to access Your Account and all sums advanced will be added
to Your Account balance. In the event a use of Your PIN constitutes an Electronic
Fund Transfer, the terms and conditions of Your Electronic Fund Transfer Agreement
may also affect Your rights. Your use of the PIN is Your authorization to Us to charge
Your Account to cover such transactions.
PREMIER PRIVILEGES REWARDS MASTERCARD MILEAGE PROGRAM
Premier Privileges Rewards Mastercard Accounts in good standing will earn Premier
Privileges Rewards Points based on signature based purchases made on Your
Account. The details of the Premier Privileges Platinum Awards feature of Your
Premier Privileges Rewards Mastercard will be disclosed to You separately.
REFUSAL TO HONOR CONVENIENCE CHECKS OR CREDIT CARDS
We are not liable for the refusal or inability of merchants, financial institutions or others
to accept convenience checks or Credit Cards, or electronic terminals to honor
convenience checks or Credit Cards or complete a Card withdrawal, or for their
retention of convenience checks or Credit Cards.
OUR RESPONSIBILITY TO HONOR CONVENIENCE CHECKS
We may not accept any convenience check if: (1) by paying a convenience check
Your Account balance would exceed Your credit limit; (2) Your convenience check or
payment check is postdated; (3) Your Cards or convenience checks have been
reported lost or stolen; (4) Your Account has been cancelled or has expired.
If a postdated convenience check is paid and as a result any other convenience check
is returned or not paid, We are not responsible. Any convenience check that is
returned by Us unpaid will be subject to a returned check fee.
FOREIGN TRANSACTIONS
(EXCEPT PREMIER PRIVILEGES REWARDS MASTERCARD)
For transactions initiated in foreign countries and foreign currencies, the
exchange rate between the transaction currency and the billing currency (U.S.
dollars) will be: (a) a rate selected by Mastercard, as is applicable, from the
range of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate Mastercard, as is applicable,
itself receives; or (b) the government-mandated rate in effect for the applicable
central processing date. In each instance, You will be charged a fee in an amount
equal to 1.00% of the settlement amount. Transactions initiated via the internet

Page 6 of 7

OTBS 016 FRB Web PREM (3/21)

with merchants or other parties located outside of the United States of America
are deemed to occur in the foreign country where the merchant or other party
is located.

What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:

TRANSACTION SLIPS
Your monthly statement will identify the merchant, electronic terminal or financial
institution at which transactions were made, but sales, cash advance, credit or other
slips are not returned with the statement.

1)

LOST OR STOLEN CREDIT CARDS OR CONVENIENCE CHECKS
To report a lost or stolen Card, immediately call (800) 811-2917. To report lost or
stolen convenience checks, contact a Premier America Credit Union information
specialist by calling (800) 772-4000 or (818) 772-4000.

While We investigate whether or not there has been an error:

2)




UNAUTHORIZED USE
You may be liable for the unauthorized use of Your Card. You will not be liable for the
unauthorized use that occurs after You notify Us orally or in writing at the address or
telephone number shown in this Agreement, of the loss, theft, or possible unauthorized
use. In any case, Your liability will not exceed $50.00.




Within 30 days of receiving Your letter, We must tell You that We received
Your letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error
or explain to You why We believe the bill is correct.

We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible
for the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:
CREDITS
If a merchant who honors Your Card gives You credit for returns or adjustments,
they will do so by generating a credit which will be posted to Your Account. If Your
credits and payments exceed what You owe Us, We will hold and apply this credit
against future purchases and cash advances or, if it is $1.00 or more, refund it on
Your written request or automatically deposit it to Your savings account after
six months.
EFFECT OF AGREEMENT
Even though the sales, cash advance, credit or other slips You may sign or receive
when using the Card contain terms, this Agreement is the contract which solely
applies to all transactions involving the Card.
Your Billing Rights: Keep this Document for Future Use




If You receive Our explanation but still believe Your bill is wrong, You must write to Us
within 10 days telling Us that You still refuse to pay. If You do so, We cannot report
You as delinquent without also reporting that You are questioning Your bill. We must
tell You the name of anyone to whom We reported You as delinquent, and We must
let those organizations know when the matter has been settled between Us. If We do
not follow all of the rules above, You do not have to pay the first $50.00 of the amount
You question even if Your bill is correct.

This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, for Mastercard write to Us at
Card Services, P.O. Box 10409, Des Moines, IA 50306. For all other Products,
write to Us at Our address shown in this Agreement. In Your letter, give Us the
following information:




Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe
what You believe is wrong and why You believe it is a mistake.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the merchant,
You may have the right not to pay the remaining amount due on the purchase. To use
this right, all of the following must be true:
1)

2)

You must contact Us:
3)



If We made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a statement
of the amount You owe and the date payment is due. We may then report You
as delinquent if You do not pay the amount We think You owe.

The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more than
$50.00. (Note: Neither of these are necessary if Your purchase was based on
an advertisement We mailed to You, or if We own the company that sold You
the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
You must not yet have fully paid for the purchase.

Within 60 days after the error appeared on Your statement.
At least three business days before an automated payment is scheduled,
if You want to stop payment on the amount You think is wrong.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Card Services, P.O. Box 10409, Des Moines, IA 50306.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.

While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that point,
if We think You owe an amount and You do not pay, We may report You as delinquent.

Copyright Oak Tree Business Systems, Inc., 2014-2021. All Rights Reserved.

Page 7 of 7

OTBS 016 FRB Web PREM (3/21)

PRICING INFORMATION ADDENDUM
CREDIT LINE ACCOUNT
AGREEMENT AND DISCLOSURE
THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR MASTERCARD, STUDENT
MASTERCARD, SECURED MASTERCARD, PREMIER PRIVILEGES REWARDS MASTERCARD, AND PREMIER
FIRST REWARDS MASTERCARD CREDIT CARDS. PLEASE BE CERTAIN TO READ THIS ADDENDUM CAREFULLY
AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage
Rate (APR) For
Purchases

0.00% introductory APR for 6 months.
After that, Your APR will be 11.24% – 18.24% based on Your creditworthiness and

Mastercard:

will vary with the market based on the Prime Rate.

0.00% introductory APR for 6 months.
After that, Your APR will be 10.50% and will vary with the market based on the Prime Rate.

Student Mastercard:

11.90% – 18.90%

Secured Mastercard:
based on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.

0.00% introductory APR for 6 months.
After that, Your APR will be 10.99% – 20.49% based on Your creditworthiness.

Premier Privileges Rewards Mastercard:

Annual Percentage
Rate (APR) For
Balance Transfers

Mastercard: 0.00% introductory APR for 6 months.
After that, Your APR will be 11.24% – 18.24% based on Your creditworthiness and will vary with
the market based on the Prime Rate.
Student Mastercard: 0.00% introductory APR for 6 months.
After that, Your APR will be 10.50% and will vary with the market based on the Prime Rate.
Secured Mastercard: 11.90% – 18.90% based on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Premier Privileges Rewards Mastercard: 0.00% introductory APR for 6 months.
After that, Your APR will be 10.99% – 20.49% based on Your creditworthiness.

Annual Percentage
Rate (APR) For Cash
Advance

Mastercard: 0.00% introductory APR for 6 months.
After that, Your APR will be 11.24% – 18.24% based on Your creditworthiness and will vary with
the market based on the Prime Rate.
Student Mastercard: 0.00% introductory APR for 6 months.
After that, Your APR will be 10.50% and will vary with the market based on the Prime Rate.
Secured Mastercard: 11.90% – 18.90% based on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Premier Privileges Rewards Mastercard: 0.00% introductory APR for 6 months.
After that, Your APR will be 10.99% – 20.49% based on Your creditworthiness.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge You any
interest on purchases if You pay Your entire balance by the due date each month. For all Feature
Categories We will begin charging interest on balance transfers and cash advances on the
transaction date.

SEE PAGE 2 for more important information about Your Account
Copyright Oak Tree Business Systems, Inc., 2014-2021. All Rights Reserved.

Page 1 of 2

OTBS 016A FRB_Web PREM (3/21)
Rev. (6/21)

Fees
Transaction Fees


Foreign Transaction



Cash Advance

For Credit Cards (except Premier Privileges Rewards Mastercard), 1.00% of each foreign currency
transaction in U.S. Dollars.
For Credit Cards (except Premier Privileges Rewards Mastercard), 1.00% of each U.S. Dollar
transaction that occurs in a foreign country.
The greater of 3.00% of each transaction or $3.00.

Penalty Fees


Late Payment

Up to $15.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.

SEE PAGE 1 for more important information about Your Account

CREDIT CARD FINANCE CHARGES
The balances subject to the periodic Finance Charge are the average daily balances outstanding during the billing cycle. The Finance Charge for a billing cycle is computed by
applying the Daily Periodic Rate to the average daily balance during the billing cycle. To get the average daily balance, We take the beginning balance of Your Account each
day, add any new purchases, balance transfers, cash advances, insurance premiums, debit adjustments and any applicable fees, and subtract any payments, credits and
unpaid Finance Charges or Late Fees. Then, We add up all the daily balances for the billing cycle and divide them by the number of days in the billing cycle which We multiply
by the Daily Periodic Rate. These daily Finance Charges are then added together and the sum is the amount of Your total new Finance Charge due.
You can avoid Finance Charges on purchases by paying the full amount of the entire balance owed each month within 25 days of Your statement closing date. Otherwise, the
new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Balance transfers and cash advances
are always subject to a Finance Charge from the later of the date they are posted to Your Account or from the first day of the billing cycle in which the transaction is posted to
Your Account.
Your Mastercard is subject to a discounted introductory Daily Periodic Rate of 0.000000% (corresponding to an ANNUAL PERCENTAGE RATE of 0.00%) for the initial sixmonth period. Upon the expiration of the introductory rate period, Your Daily Periodic Rate will increase to 0.030794% - 0.049972% (corresponding to an ANNUAL
PERCENTAGE RATE of 11.24% - 18.24%), depending on Your creditworthiness.
Your Student Mastercard is subject to a discounted introductory Daily Periodic Rate of 0.000000% (corresponding to an ANNUAL PERCENTAGE RATE of 0.00%) for the
initial six-month period. Upon the expiration of the introductory rate period, Your Daily Periodic Rate will increase to 0.028767% (corresponding to an ANNUAL PERCENTAGE
RATE of 10.50%).
Your Daily Periodic Rate for Secured Mastercard is 0.032602% - 0.051780% (corresponding to an ANNUAL PERCENTAGE RATE of 11.90% - 18.90%), depending on
Your creditworthiness.
Your Premier Privileges Rewards Mastercard is subject to a discounted introductory Daily Periodic Rate of 0.000000% (corresponding to an ANNUAL PERCENTAGE RATE
of 0.00%) for the initial six-month period. Upon the expiration of the introductory rate period, Your Daily Periodic Rate will increase to 0.030109% - 0.056113% (corresponding
to an ANNUAL PERCENTAGE RATE of 10.99% - 20.49%), depending on Your creditworthiness.
VARIABLE RATE (EXCEPT PREMIER PRIVILEGES REWARDS MASTERCARD)
Except Premier Privileges Rewards Mastercard, all advances are subject to a Variable Rate which is based on the Prime Rate as published in the Money Rates Section of The
Wall Street Journal on the last day of Your previous billing cycle ("Index") plus Our Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index will cause
changes in the Interest Rate on the first day of the billing cycle following any such change in the Index. Increases or decreases in the Interest Rate will cause like increases or
decreases in the Finance Charge and will affect the number of regularly scheduled payments that You will be required to make. There is no limit on the amount by which Your
Interest Rate can increase.
The Margin for Mastercard will range from 5.65 - 12.65 depending on Your creditworthiness.
The Margin for Student Mastercard is 6.25.
The Margin for Secured Mastercard will range from 7.65 - 14.65 depending on Your creditworthiness.

Copyright Oak Tree Business Systems, Inc., 2014-2021. All Rights Reserved.

Page 2 of 2

OTBS 016A FRB_Web PREM (3/21)
Rev. (6/21)

